             Audit Report



    Access to Social Security
   Administration Data at the
Disability Determination Services




       A-15-11-01127| January 2013
MEMORANDUM


Date:      January 29, 2013                                                      Refer To:

To:        The Commissioner
From:      Inspector General
Subject:   Access to Social Security Administration Data at the Disability Determination Services
           (A-15-11-01127)

           The attached final report presents the results of our audit. Our objectives were to determine
           whether (1) security profiles assigned to disability determination services (DDS) employees
           provide access to Social Security Administration (SSA) data they do not need, (2) terminated
           DDS employees continue to have access to SSA systems, and (3) DDSs have an appropriate
           process for requesting and approving access to SSA systems.

           If you wish to discuss the final report, please call me or have your staff contact
           Steven L. Schaeffer, Assistant Inspector General for Audit, at (410) 965-9700.




                                                         Patrick P. O’Carroll, Jr.

           Attachment
Summary of Access to Social Security Administration Data at the
Disability Determination Services
A-15-11-01127
January 2013

Objective                                   Our Findings

To determine whether (1) security           DDSs have a responsibility to safeguard sensitive SSA data
profiles assigned to disability             entrusted to them to ensure SSA DDS systems are not
determination services (DDS)                compromised. We reviewed DDS employees’ systems access at
employees provide access to Social          14 DDSs nationwide. Although the Agency has controls in place to
Security Administration (SSA) data          review DDS employee access, we found that DDS employees were
they do not need, (2) terminated DDS        granted unnecessary access. We noted that DDS employees were
employees continue to have access to        assigned profiles that were not appropriate for their job functions
SSA systems, and (3) DDSs have an           and profiles that had not been used for an extended period of time.
appropriate process for requesting and      We also found that there was not a consistent process among the
approving access to SSA systems.            DDSs for removing access of terminated employees. This
                                            potentially led to the untimely removal of access for several
Background                                  employees. By not removing separated employees’ system access
                                            timely, personnel may have inappropriate access to SSA systems.
SSA’s systems access policy is built on     DDSs should formally document the processes for obtaining and
the principles of least privilege and       removing access to ensure procedures are followed consistently.
need-to-know. Controlling and               We found that several DDSs did not have formally documented
limiting systems access to the              policies and procedures.
Agency’s information systems and
resources is the first line of defense in   Our Recommendations
assuring the confidentiality, integrity,
and availability of the Agency’s            Because the issues noted above have previously been identified as
information technology resources.           part of the Fiscal Year 2011 Financial Statement Audit and are still
                                            ongoing, we recommend that the Agency strengthen various
                                            policies to ensure that systems access for DDS employees is
                                            monitored and maintained properly.

                                            The Agency agreed with our recommendations.
TABLE OF CONTENTS
Objective ..........................................................................................................................................1
Background ......................................................................................................................................1
     Systems Access ..........................................................................................................................2
           Prior Audit Findings ............................................................................................................3
Results of Review ............................................................................................................................3
     DDS Employees Granted Unnecessary Access .........................................................................4
           Profiles Provided by the Agency Compared to DDS Profiles .............................................4
           Assigned Profiles Compared to Job Titles and Descriptions ...............................................5
           Nonuse of Profiles and PINs ................................................................................................6
     Terminated Employees ..............................................................................................................8
           Accounts with Inactive Status ..............................................................................................9
           Accounts with Active Status ................................................................................................9
           Temporary Employees .......................................................................................................10
           Procedures for Deactivating and Deleting PINs ................................................................11
     DDS Documented Process .......................................................................................................11
Conclusions ....................................................................................................................................12
Recommendations ..........................................................................................................................13
Agency Comments .........................................................................................................................13
Appendix A – Scope and Methodology ..................................................................................... A-1
Appendix B – Inactive Profiles and PINs per State ................................................................... B-1
Appendix C – Agency Comments .............................................................................................. C-1
Appendix D – Major Contributors.............................................................................................. D-1




Access to Social Security Administration Data at the DDSs (A-15-11-01127)
ABBREVIATIONS
C.F.R.               Code of Federal Regulations

CSI                  Center for Security and Integrity

DDS                  Disability Determination Services

ISSH                 Information Systems Security Handbook

IT                   Information Technology

ODD                  Office of Disability Determinations

PIN                  Personal Identification Number

POMS                 Program Operations Manual System

Pub. L. No.          Public Law Number

RO                   Regional Office

SSA                  Social Security Administration

TEC                  Triennial Certification




Access to Social Security Administration Data at the DDSs (A-15-11-01127)
OBJECTIVE
Our objectives were to determine whether (1) security profiles assigned to disability
determination services (DDS) employees provide access to Social Security Administration (SSA)
data they do not need, (2) terminated DDS employees continue to have access to SSA systems,
and (3) DDSs have an appropriate process for requesting and approving access to SSA systems.

BACKGROUND
On September 1, 1954, President Eisenhower signed into law the Social Security Amendments of
1954. 1 As part of the Amendments, the law sets forth the conditions for making disability
determinations. The State Vocational Rehabilitation Agencies or other appropriate State
agencies, under agreements with the Secretary of Health, Education, and Welfare, 2 would
determine whether the individual was suffering from a disability and the days the disability
began and ceased.

In June 1980, Congress passed additional legislation strengthening the disability program. 3 In
passing the 1980 legislation, Congress sought to ensure effective and uniform administration of
the disability programs nationwide by strengthening the Federal management of the State
disability determination process. To this end, it abolished the system of individual State
agreements. It also required that the Secretary of Health, Education, and Welfare promulgate
regulations specifying performance standards and administrative procedures States must follow
when conducting disability determinations. According to the Agency, Federal regulations 4 limit
the amount of guidance Federal agencies can require of DDS’ personnel selection. The
regulations allow States to adhere to applicable State-approved personnel standards in the
selection, tenure, and compensation of any individual employed in the disability program.




1
    Pub. L. No. 83-761, 68 Stat. 1052.
2
 Reorganization Plan No. 1 of 1953 established the Department of Health, Education, and Welfare. It was then re-
designated the Department of Health and Human Services by Pub. L. No. 96-88, §509, 93 Stat.688, 695, effective
May 4, 1980. Effective March 31, 1995, SSA was established as an independent agency by the Social Security
Independence and Program Improvements Act of 1994, Pub. L. No. 103-296, § 101, 108 Stat. 1464, 1465.
3
    Social Security Disability Amendments of 1980, Pub. L. No. 96-265, 94 Stat. 441.
4
    20 C.F.R. §§ 404.1621(b) and 416.1021(b).




Access to Social Security Administration Data at the DDSs (A-15-11-01127)                                          1
The function of disability determinations has remained with the States since the 1954 legislation.
All 50 States, plus the District of Columbia and Puerto Rico, have DDS locations. Some States
have multiple sites, for a total of 116 physical locations 5 as of August 3, 2012. 6 For the week
ended August 3, 2012, the DDSs had 16,143 full- and part-time employees.

To accomplish our objectives, we reviewed 14 State DDSs. These DDSs comprised
approximately 52 percent of the Title II and XVI disability workloads nationwide and had
approximately 7,967 full- and part-time employees 7 for the week ended August 3, 2012.

Systems Access
SSA’s Systems Access Policy is contained in Chapter 2 of its Information Systems Security
Handbook (ISSH). This Policy is based primarily on Office of Management and Budget Circular
A-130 8 and National Institute of Standards and Technology Special Publication 800-53. 9

SSA’s systems access policy is built on the principles of least privilege 10 and need-to-know. 11
Controlling and limiting systems access to the Agency’s information systems and resources is
the first line of defense in assuring the confidentiality, integrity, and availability of the Agency’s
information technology (IT) resources. 12 This policy applies to all SSA employees and other
authorized users, such as employees of other agencies, business partners, contractors, agents, and
any other individuals operating on behalf of the Agency having direct access to and/or using
SSA information system resources. 13



5
    This figure also includes administrative offices.
6
  For purposes of this audit, we are reporting on 52 DDSs, 1 per State plus the District of Columbia and Puerto Rico,
regardless of how many DDS sites a State may have.
7
    This number does not include contractors for the DDSs.
8
 Office of Management and Budget Circular A-130, Management of Federal Information Resources,
November 28, 2000.
9
 National Institute of Standards and Technology Special Publication 800-53, Recommended Security Controls for
Federal Information Systems and Organizations, August 2009.
10
  The process of granting users only that access to applications and transaction screens they need to perform their
official duties and of limiting their access to Agency information systems to specific applications and levels of
access based on their job functions.
11
  The legitimate requirement of a person or organization to know, access, or possess sensitive or classified
information that is critical to the performance of an authorized, assigned mission. Approved access to Agency
information systems is limited to specific applications and levels of access based on job function(s).
12
     SSA’s ISSH, Systems Access Policy, Section 2.1, Purpose.
13
     SSA’s ISSH, Systems Access Policy, Section 2.2, Scope.



Access to Social Security Administration Data at the DDSs (A-15-11-01127)                                             2
Although the ISSH contains SSA’s Systems Access Policy, the detailed policy and procedures
for the DDSs are contained in SSA’s Program Operations Manual System (POMS).

SSA uses Top Secret security software to provide a security access control for SSA systems.
This is achieved through the use of a personal identification number (PIN) that is unique to each
individual.

The profile is one of Top Secret’s primary access control mechanisms. SSA develops most
profiles for specific job positions (positional profiles). Each profile contains a unique mix of
facilities and transactions that determines what access to systems resources each position needs.
DDS staff members are also assigned functional profiles that augment selected employees’
access when it is not desirable to change the positional profile.

DDS employees, management and security officers prepare Form SSA-120, Application for
Access to SSA Systems, to request access to SSA systems. The DDS security officer then submits
the Form to the Center for Security and Integrity (CSI) in its SSA region for approval. A CSI
Security Officer reviews and approves the request, issues a PIN, and notifies the DDS Security
Officer that the PIN has been issued.

For the DDSs in our review, the four most assigned positional profiles were Examiner, Clerical,
Medical Consultant, and Single Decision Maker. All of these profiles allow individuals to search
for and view disability claim information in the client’s SSA electronic folder. Three of the
profiles allow the ability to use the electronic case analysis tool to electronically sign/unsign
disability determinations and electronically submit case records to SSA. These profiles allow
access to personally identifiable information and should be monitored closely.

Prior Audit Findings
The Fiscal Year 2011 financial statement audit conducted by Grant Thornton, LLP identified
logical access control weaknesses at the DDSs. Specifically, during one of the DDS site visits,
Grant Thornton, LLP noted the removal of access for personnel separations was not conducted
timely. Grant Thornton, LLP also noted that there were no formally documented policies and
procedures regarding employees obtaining access to SSA systems. As part of this review, we
conducted testing in these two areas to determine the extent of the issues.

RESULTS OF REVIEW
DDSs have a responsibility to safeguard sensitive SSA data entrusted to them and to ensure SSA
and DDS systems are not compromised. We reviewed DDS employees’ 14 systems access at
14 DDSs nationwide. Overall, our review determined that (1) DDS employees were granted
access that was not necessary to complete their job functions, (2) the removal of terminated


14
  For this review, we included all individuals (that is, employees and contractors) with systems access at the DDS.
For this report, employees will refer to both employees and contractors.




Access to Social Security Administration Data at the DDSs (A-15-11-01127)                                             3
employees’ access was not executed timely, and (3) DDSs did not have formally documented
policies and procedures regarding employees obtaining access to SSA systems.

DDS Employees Granted Unnecessary Access
To determine whether profiles assigned to DDS employees followed SSA’s policy of least
privilege and need-to-know, we completed the following testing for each of the 14 DDSs.

•      Compared a list of profiles provided by the Agency to all profiles assigned to all employees.

•      Compared assigned profiles to the employees’ job titles and descriptions for a sample of
       employees.

•      Reviewed the number of days profiles and PINs were unused for all employees.

Based on our review, we found that profiles assigned to employees in some States were either
inappropriate or not removed timely after the employees’ job duties ceased. We also noted that
many employees had profiles that had been unused for extensive periods and therefore we
believe the access was no longer necessary.

Profiles Provided by the Agency Compared to DDS Profiles
We obtained a list of all profiles assigned to DDS employees from the Office of Disability
Determinations (ODD). We compared this list to all profiles assigned to employees in the
14 DDSs to determine whether any profiles were inappropriately assigned. 15 Our comparison
noted several profiles that were assigned to DDS employees but were not included in the list
ODD provided. We requested explanations from the Agency to determine the appropriateness of
the profiles. Based on the Agency’s response, we noted the following.

•      In one region, a profile was assigned to one individual as a “temporary work around” 16 and
       had not been removed as of the time of our comparison.

•      A Top Secret error automatically assigned the Performance Assessment and Communications
       System profile 17 to employees.

•      One user was assigned an inappropriate profile that the Agency stated had been removed.




15
 This testing was not conducted on a person-by-person basis but a review of profiles assigned overall in the 14
DDSs.
16
     A method used for achieving a task or goal when the usual or planned method isn’t working.
17
     This profile was used for documenting performance assessments.




Access to Social Security Administration Data at the DDSs (A-15-11-01127)                                         4
•   In one region, seven users had a profile that they no longer needed and therefore was
    removed.

Based on the principles of least privilege and need-to-know, DDS employees should only have
the access needed to complete their job functions. Additional access can lead to unauthorized
entry into SSA’s systems. DDS management should ensure that employee access is monitored
and only the appropriate profiles are assigned.

Assigned Profiles Compared to Job Titles and Descriptions
We reviewed a sample of 630 DDS employees (45 employees from each of the 14 DDSs) to
determine whether the profiles assigned appeared reasonable based on the employees’ job titles
and descriptions. Based on our testing we found the following.

•   Three States assigned profiles to six employees that were not appropriate for their job
    functions.

•   One State assigned both the Examiner and Clerical profiles to a secretary. The Examiner
    profile was assigned in error and was discovered during an internal review. The individual
    had both profiles inappropriately assigned for approximately 20 months before being
    corrected.

•   One State did not remove the Examiner profile once the individual’s duties as an Examiner
    ceased in December 2011. This error was caught and corrected in May 2012.

For one of the three States that assigned inappropriate profiles, a Systems Programmer was
assigned the Clerical profile. The Clerical profile provides access to search and view disability
claim information in the client’s SSA Electronic Folder and copy Electronic Folder images and
exhibits to a compact disc. Therefore, the Systems Programmer had access to information that
was not needed to perform his/her job duties. As of October 2012, the Clerical profile had not
been removed from this individual; however, the account was inactive.

For the second State, four individuals were assigned inappropriate profiles. One individual was a
Data Systems Coordinator, which involved developing word processing procedures and assisting
others with case processing and applications. This individual was assigned the Examiner profile,
which allowed access to search and view disability claim information in the client’s SSA
Electronic Folder. This access was inappropriate for the individual’s job duties. Another
individual was a Secretary but was assigned the Medical Consultant profile. The Medical
Consultant profile gave this individual access to search and view disability claim information,
create initial-level disability cases, and electronically sign/un-sign disability determinations and
send case records to SSA. The final two individuals were Disability Claims Supervisors but had
Examiner profiles. According to the DDS, these individuals should have had the Supervisor
profile. Although the main function of the Examiner profile is included in the Supervisor profile,
the DDS should ensure that all individuals have the appropriate profiles.




Access to Social Security Administration Data at the DDSs (A-15-11-01127)                           5
For the third State, an Accounts Payable Contract Consultant was assigned the Case Control
Supervisor profile in November 2003. This profile allowed the individual to search for and view
disability claim information in the client’s SSA Electronic Folder, perform a supervisory
override in the Electronic Folder when the software stops a claim from being transferred, and
unlock claims that were locked by users and copy Electronic Folder images and exhibits to a
compact disc. According to the DDS, this profile was assigned in error, and this individual
should have been given the Clerical profile. According to a Top Secret report, the Case Control
Supervisor profile was not removed before the individual’s employment ended in July 2011.
Therefore, this employee was assigned additional access for over 7 years.

Nonuse of Profiles and PINs
Adhering to the principles of least privilege and need to know helps reduce the risk of
compromising the confidentiality, integrity, or availability of SSA’s IT resources. SSA uses its
triennial certification (TEC) process to enforce compliance with these access control principles.

During the TEC process, managers review each of their employees’ profiles and determine
whether the employees have only those profiles needed to do their jobs. If the managers
determine an employee no longer needs a profile, they are supposed to instruct the security
officer to remove the profiles from the employees’ PINs. According to the Agency, there is no
specific timeframe for determining whether a profile is needed based on the amount of time it
has been unused.

To examine the status of nonuse of profiles and PINs, we obtained an IT Resource Usage
Report 18 as of April 15, 2011 19 from SSA’s Office of Telecommunications and Systems
Operations for all individuals at the 14 DDSs. 20 Since SSA did not have criteria for a number of
days of nonuse in which a profile is no longer needed, we reviewed industry standards to
determine a reasonable number of days of nonuse before a profile should be removed.
According to industry standards, 21 “. . . disabling user accounts after 60 or 90 days of inactivity
mitigates danger of unauthorized access. Stale accounts are risky—and unauthorized use of




18
  The eTrust Cleanup Report (IT Resource Usage Report) shows a profile’s and PIN’s last date of access. For any
profile or PIN, the report lists how many days have elapsed since the date of last usage (Days Unused column).
19
  During our initial review of the report, we noted several States that had individuals missing from the report.
Therefore, updated reports were requested to ensure a complete population. We obtained the updated reports for one
State as of July 28, 2011 and for four States as of September 15, 2011.
20
  We reviewed 9,785 individuals with an assigned PIN at the 14 DDSs. This total can include employees as well as
contractors that were assigned a PIN.
21
     NETIQ, Sarbanes-Oxley Section 404 Compliance for iSeries White Paper, July 21, 2004, page 3.




Access to Social Security Administration Data at the DDSs (A-15-11-01127)                                         6
these accounts could go unnoticed for a long time.” For our review, we identified DDS
employees with inactive profiles and PINs unused 22 over 120 days and over 365 days,
respectively. 23 Tables 1 and 2 summarize the results of our review.

                                            Table 1: Inactive Profiles
          Total Employees              Total Employees with a                   Total Employees with a
             Reviewed              Profile(s) Unused for more than          Profile(s) Unused for more than
                                               120 days                                 365 days
                9,785                               512                                     709


We noted for all 14 DDSs, 512 employees (5 percent of all employees) had at least 1 profile that
was unused for over 120 days. For example, 1 State had 11 of 802 employees with profiles that
were unused over 120 days, which totaled 1.4 percent. We also found 1 State had 35 of 216 total
employees with unused profiles over 120 days, which totaled 16.2 percent.

We also noted about 7 percent, or 709 employees, had at least 1 profile that had not been used in
over 365 days. For instance, we found that 5 States had over 10 percent of their employees with
profiles unused for more than 365 days. One of these States had 40 of its 216 (18.5 percent)
employees with at least 1 profile unused for over 365 days. Because of the length of time in
which the profiles had not been used, it appears that they are not necessary for the employees to
complete their job functions. The additional access increases the risk of claimant data being
accessed inappropriately.

                                            Table 2: Inactive PINs 24

          Total Employees            Total Employees with PINs               Total Employees with PINs
             Reviewed               Unused for more than 120 days           Unused for more than 365 days

                9,785                               135                                     139



PINs are assigned to each user to act as the user’s “name” in the system. When a user signs into
the system, the date of access is captured in Top Secret. Based on our review of user PINs that
had been unused for a period of time, we noted that 135 (approximately 1 percent) of all DDS
employees from all 14 DDSs had not signed into their accounts in more than 120 days, and an


22
     The number of days unused for the PINs indicates how many days it has been since the user last signed on.
23
  Because an individual can be assigned a positional and several functional profiles, an employee may be included
in more than one of the results tables.
24
     One State did not have any employees with PINs unused over 120 days.




Access to Social Security Administration Data at the DDSs (A-15-11-01127)                                           7
additional 139 (1 percent) had not signed onto their accounts in more than 365 days. For
instance, we noted 1 State had 12 employees (5.6 percent) that had not signed onto their accounts
in over 120 days and an additional 13 (6 percent) that had not accessed their accounts in over
365 days. DDSs need to ensure that inactive accounts are removed timely to reduce the risk of
inappropriate access to claimant data. See Appendix C for a breakout of results for each State
tested.

Terminated Employees
We obtained a list of terminated employees from each of the 14 DDSs through April 2011 to
determine whether the employees’ access had been deactivated 25 timely from the date of
separation. 26 According to SSA policy, employees should be removed from the system
immediately when they are terminated or separated from the DDS. Although SSA policy states
that access should be removed immediately, we identified employees’ accounts that were not
deactivated within 5 business days of the date of separation provided by the DDS. Table 3
summarizes the results of our review.

              Table 3: Number of Days to Deactivate PINs for Terminated Employees
        Number of Days from Employee                     Number of                Number of Employees
       Separation to Deactivation of PIN                   States
             6 business days to 30 days                        9                               56
                   31 to 60 days                               9                               30
                   61 to 90 days                               5                                9
                   Over 90 days                               13                               91

During our review of terminated employees, we also noted (1) accounts that had an inactive
status 27 and had not been deactivated by the Security Officer, (2) accounts that were still active,
and (3) temporary employees that left the DDS for a period of time and returned to work;
however, access was either never deactivated or deactivated untimely. We contacted the DDSs
to confirm that each of these individuals had been removed from the DDS. We also obtained
updated reports 28 to determine whether the employees’ statuses had changed since the DDSs
were notified of the results.



25
  An account is deactivated when a user’s access on the system is suspended, rendering the account useless for the
purpose of gaining further systems access.
26
     We tested 424 terminated employees.
27
  According to the Agency, an account becomes inactive after 59 days of nonuse unless a Security Officer makes
the PIN inactive. If a PIN is inactive, a Security Officer has to reactivate it before it can be used to access the
system.
28
  We obtained “History” reports from Top Secret to identify the status of the accounts and date on which the
account was deactivated.



Access to Social Security Administration Data at the DDSs (A-15-11-01127)                                             8
Accounts with Inactive Status
We noted 5 States that had a total of 12 employees with an inactive status. According to the
report detail, there was no indication that these accounts had been deactivated. We provided the
five DDSs with the employee names to confirm they were actually separated from the DDS.
According to all five DDSs, all of the employees had separated from the DDSs. We obtained
updated reports as of May and again in October 2012 to determine whether the status of these
accounts had changed. Table 4 summarizes the results.

             Table 4: Updated Status of Inactive Accounts as of May and October 2012

                                                          As of May 2012                   As of October 2012
     Updated Status of Inactive Accounts
                                                 Number of         Number of         Number of        Number of
                                                   States          Employees          States 29       Employees

 Accounts were deactivated but it was over            1                 2                 3               7
   90 days since the date of separation


     Accounts were still inactive and had not         4                 10                3               5
     been deactivated by the Security Officer


Accounts with Active Status
We noted 9 States with 56 employees who still had active accounts despite the DDSs stating they
had separated from the DDS. We provided the DDSs with the names of the employees to
confirm that they had actually separated from the DDS. According to all nine DDSs, all but one
individual had been separated from the DDSs. We obtained updated reports as of May and again
in October 2012 to determine whether the status of these accounts had changed. Table 5
summarizes our results.




29
     One State had both employees that were deactivated and an employee that was still inactive.




Access to Social Security Administration Data at the DDSs (A-15-11-01127)                                         9
            Table 5: Updated Status of Active Accounts as of May and October 2012

     Updated Status of Active Accounts                  As of May 2012                  As of October 2012

                                               Number of         Number of         Number of         Number of
                                                 States          Employees           States          Employees

Accounts were deactivated but it was 31 to          1                 1                 1                 1
   60 days since the date of separation

Accounts were deactivated but it was 61 to          1                 2                 1                 2
   90 days since the date of separation

 Accounts were deactivated but it was over          9                43                 9                47
   90 days since the date of separation

Accounts were still active and had not been         4                 9                 1                 5
   deactivated by the Security Officer


For the employees who still had an active status, we also obtained a report from Top Secret
showing specific detail of the PIN including the date it was last used. 30 We noted that for one
employee, the date the PIN was last used was after the date of separation provided by the DDS.
For this individual, the date of last use was in November 2010, and this employee left the DDS in
August 2010. We provided this case to Headquarters for review on August 3, 2012. According
to the Agency, systems staff used this PIN in troubleshooting workstation components and
applications in the user group that allows login script customizations, rights/permissions,
software usage and performance and compact disc creation. When a PIN is not deactivated upon
separation and is allowed to be used by other staff, the Agency’s data are at risk for individuals
not approved to access SSA systems.

Temporary Employees
During our inquiries with the DDSs, we noted several employees whom the DDSs stated had
separated but, upon further review, noted that they had returned to the DDS or transferred to
another DDS after a period of separation. We found for three States, four employees had
separated for a period of time or switched to another location; however, the PINs were not
deactivated during the period of separation. For example, one State had an employee who left
the DDS in September 2010. During our review of the Top Secret reports, we noted this
individual still had an active account. Based on follow up with the DDS, we were informed that
this employee returned in March 2011. According to the Top Secret report, this account was not
deactivated when the employee separated. For another State, the DDS stated the individual left
the DDS in March 2011. According to Top Secret, this account was not deactivated. Upon


30
  The last used field is populated by Top Secret whenever the user connects to the mainframe. It is updated upon a
successful login.




Access to Social Security Administration Data at the DDSs (A-15-11-01127)                                        10
further discussion with the DDS, we were informed that the employee was working at a different
DDS, and Top Secret was not updated to show the new location.

We also noted one State had two employees who left temporarily; however, the DDS did
deactivate the accounts when the employees left. We noted that one account was deactivated
20 days after the date of separation, and one account was deactivated 45 days after the employee
left the DDS. DDSs need to ensure that all accounts are deactivated timely after an employee
has separated. When separated employees’ systems access is not removed timely, they may have
inappropriate access to SSA systems.

Procedures for Deactivating and Deleting PINs
We noted that procedures the DDSs followed for deactivating PINs upon an employee’s
separation were not consistent among DDSs. For instance, we found that Security Officers at
DDSs in 11 States were responsible for deactivating the employee’s access. However, the
remaining three DDSs stated the regional office’s CSI was responsible for deactivating the
accounts. SSA policy states that DDS Security Officers are responsible for certain PIN
maintenance, such as discontinuing authorized systems access during an employee’s departure.
Although the policy says the DDS Security Officer should take action, it is not clear whether it is
the Security Officer’s responsibility to actually deactivate the accounts or notify the regional
office CSI. Without a consistent policy in place for DDSs, accounts may not be deactivated
timely and therefore are at higher risk of inappropriate access to claimant data.

We also noted that there was no consistent process for deleting PINs once an employee separated
from the DDS. According to the Agency, each region follows a different process for requesting
an account be deleted from Top Secret. There is no required form that DDSs complete to request
the removal of access when an employee is terminated. Therefore, the accounts for employees
who have been terminated are not timely removed from Top Secret, leaving their access
vulnerable to inappropriate use. Policy does not seem to be clear on who has the authority over
the process for deactivating and deleting accounts.

DDS Documented Process
To ensure the DDSs had appropriate processes in place for requesting and approving access to
SSA’s systems, we requested the formal internal documentation from each DDS outlining the
process. Nine of the DDSs could not provide formal internal documentation. Some States said
employees understood the process, and they received training on the process. Other States said
they relied on what SSA had documented either in POMS or on regional sites. According to
SSA policy, each DDS must have a procedure that documents its users’ access. Although POMS
is not specific about whether the DDSs should formally document this process, having
undocumented policies and procedures for accessing SSA systems may result in an ineffective
method of reviewing the request for such access. This could lead to users obtaining or retaining
inappropriate authorization to SSA systems and information.




Access to Social Security Administration Data at the DDSs (A-15-11-01127)                        11
CONCLUSIONS
Controlling and limiting access to the Agency’s information systems and resources is the first
line of defense in ensuring the confidentiality, integrity, and availability of the Agency’s
information resources. Lack of adequate access controls compromises the completeness,
accuracy, and validity of the information in the system.

Although the Agency has controls in place, such as the TEC, we found that DDS employees
were granted unnecessary access. Specifically, we noted that DDS employees were assigned
profiles that were not appropriate for their job functions. We also found employees had profiles
that had not been used for an extended period of time. According to SSA policy, DDS
management must ensure that all user accounts are reviewed periodically and inactive accounts
are disabled. Additional access can lead to unauthorized entry to the system.

Upon an employee’s separation, their access should be deactivated immediately. We noted DDS
employees who were separated from the DDS, and their access was not deactivated timely. For
instance, one DDS deactivated an employee’s account 943 days after the employee had separated
from the DDS. By not removing separated employees’ system access timely, personnel may
have inappropriate access to SSA systems. A consistent process among DDSs for deactivating
access and requesting accounts to be deleted would help ensure access was removed timely.
According to the Agency, each region followed a different process to request an account to be
deleted. The Agency should ensure a process is in place for all DDSs for deactivating and
deleting accounts.

We also found that DDSs did not have formally documented policies and procedures regarding
employees obtaining access to SSA systems. Undocumented policies and procedures detailing
the process to obtain access to SSA systems may result in an ineffective method to review
requests for such access. It could also lead to users retaining inappropriate authorization to SSA
systems and information.

The previous two issues were also identified during the Fiscal Year 2011 financial statement
audit. As such, Grant Thornton, LLP made the following recommendations.

•   DDS management should follow Agency established separation procedures and ensure the
    timely removal of logical access for separated employees, and

•   DDS management should document formal policies and procedures detailing the process for
    obtaining local access to SSA systems.




Access to Social Security Administration Data at the DDSs (A-15-11-01127)                        12
RECOMMENDATIONS
The Agency responded that it would issue a security reminder for the timely removal of access
for separated employees and investigate revising POMS for the documentation of policies and
procedures. Because these issues were previously identified and still ongoing, the Agency
should strengthen policy to ensure that systems access for DDS employees is monitored and
maintained properly. Therefore, we recommend SSA:

1. Establish policy and guidelines that sets a threshold for profile nonuse and assigns
   responsibility for removing nonuse profiles to DDS management.

2. Establish monitoring tools to alert DDS management when nonuse profiles are in excess of
   thresholds to ensure that proper action is taken timely.

3. Establish a policy that assigns responsibility for deactivating and deleting DDS user accounts
   and provide enforcement to ensure that access for separated employees and inactive user
   accounts is removed or disabled timely.

4. Establish policy that assigns responsibility to DDS management to document and enforce
   access management procedures that comply with SSA’s information security policy.

AGENCY COMMENTS
SSA agreed with the recommendations. See Appendix C for the Agency’s Comments.




Access to Social Security Administration Data at the DDSs (A-15-11-01127)                       13
                                        APPENDICES




Access to Social Security Administration Data at the DDSs (A-15-11-01127)
Appendix A – SCOPE AND METHODOLOGY
To accomplish our objectives, we:

•   Reviewed applicable Federal laws and regulations as well as SSA’s policies and procedures
    pertaining to DDS systems access.

•   Requested and reviewed State policy for establishing and maintaining systems access from
    each of the 14 DDSs.

•   Obtained employee lists and assigned profiles from the Office of Telecommunications and
    Systems Operations for the 14 State DDSs as of March 15, 2011.

•   Requested job titles and descriptions for employee lists from each of the 14 State DDSs.

•   Selected a random sample of 45 employees from each of the 14 State DDS employee listings
    to compare the job title and description with the assigned profiles.

•   Obtained the eTrust Cleanup Report as of April 15, 2011 for all employees from each of the
    14 State DDSs.

•   Requested a list of terminated employees including the date of termination through April
    2011 from each of the 14 State DDSs.

•   Obtained History reports from the Top Secret system for each of the terminated employees
    from all 14 State DDSs.

We determined that the computerized data used during our review were sufficiently reliable
given our objectives, and the intended use of the data should not lead to incorrect or
unintentional conclusions.

We performed our fieldwork at Headquarters in Baltimore, Maryland, from September 2011
through September 2012. We conducted this performance audit in accordance with generally
accepted government auditing standards. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for findings and
conclusions based on our audit objectives. We believe the evidence obtained provides a
reasonable basis for our findings and conclusion based on our audit objectives.




Access to Social Security Administration Data at the DDSs (A-15-11-01127)                      A-1
Appendix B – INACTIVE PROFILES AND PINS PER STATE
                                 Number of             Number of              Number of        Number of
            Total number       Employees with        Employees with         Employees with   Employees with
 State
            of Employees       Profiles Unused       Profiles Unused         PINs Unused      PINs Unused
                                over 120 days         over 365 days          over 120 days    over 365 days
   1             86                   5                    11                     0                2

   2             401                  23                   61                     3                1

   3            1,150                 28                   61                    10               15

   4             451                  39                   51                    12               15

   5             279                  7                     5                     4                1

   6             802                  11                    9                     2                1

   7             701                  23                   63                     4               12

   8            1,392                 70                   52                    29               17

   9             767                  50                   137                   11               11

  10             432                  9                    37                     3                5

  11            1,113                 27                   47                     2                6

  12             216                  35                   40                    12               13

  13             215                  18                   16                     6                1

  14            1,780                167                   119                   37               39




Access to Social Security Administration Data at the DDSs (A-15-11-01127)                              B-1
           Appendix C – AGENCY COMMENTS




                                             SOCIAL SECURITY
MEMORANDUM


Date:      January 7, 2013                                                             Refer To:   S1J-3

To:        Patrick P. O’Carroll, Jr.
           Inspector General

From:      Dean S. Landis /s/
           Deputy Chief of Staff

Subject:   Office of the Inspector General Draft Report, “Access to Social Security Administration Data at
           the Disability Determination Services” (A-15-11-01127)--INFORMATION

           Thank you for the opportunity to review the draft report. Please see our attached comments.

           Please let me know if we can be of further assistance. You may direct staff inquiries to
           Amy Thompson at (410) 966-0569.




           Access to Social Security Administration Data at the DDSs (A-15-11-01127)                       C-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL DRAFT REPORT,
"Access to Social Security Administration Data at the Disability Determination Services"
(A-15-11-01127)

Recommendation 1

Establish policy and guidelines that sets a threshold for profile nonuse and assigns responsibility
for removing nonuse profiles to DDS management.

Response

We agree.

Recommendation 2

Establish monitoring tools to alert DDS management when nonuse profiles are in excess of
thresholds to ensure that proper action is taken timely.

Response

We agree.

Recommendation 3

Establish a policy that assigns responsibility for deactivating and deleting DDS user accounts
and provide enforcement to ensure that access for separated employees and inactive user
accounts is removed or disabled timely.

Response

We agree.

Recommendation 4

Establish policy that assigns responsibility to DDS management to document and enforce access
management procedures that comply with SSA’s information security policy.

Response

We agree.




Access to Social Security Administration Data at the DDSs (A-15-11-01127)                        C-2
Appendix D – MAJOR CONTRIBUTORS
    Victoria Vetter, Director, Financial Audit Division

    Judith Kammer, Audit Manager, Financial Audit Division

    Kelly Stankus, Senior Auditor




Access to Social Security Administration Data at the DDSs (A-15-11-01127)   D-1
                                           MISSION
By conducting independent and objective audits, evaluations, and investigations, the Office of
the Inspector General (OIG) inspires public confidence in the integrity and security of the Social
Security Administration’s (SSA) programs and operations and protects them against fraud,
waste, and abuse. We provide timely, useful, and reliable information and advice to
Administration officials, Congress, and the public.


                                   CONNECT WITH US
The OIG Website (http://oig.ssa.gov/) gives you access to a wealth of information about OIG.
On our Website, you can report fraud as well as find the following.
   •   OIG news                                  In addition, we provide these avenues of
   •   audit reports
                                                 communication through our social media
                                                 channels.
   •   investigative summaries
   •   Semiannual Reports to Congress                Watch us on YouTube
   •   fraud advisories                              Like us on Facebook
   •   press releases
                                                     Follow us on Twitter
   •   congressional testimony
   •   an interactive blog, “Beyond The              Subscribe to our RSS feeds or email updates
       Numbers” where we welcome your
       comments


                          OBTAIN COPIES OF AUDIT REPORTS
To obtain copies of our reports, visit our Website at http://oig.ssa.gov/audits-and-
investigations/audit-reports/all. For notification of newly released reports, sign up for e-updates
at http://oig.ssa.gov/e-updates.


                          REPORT FRAUD, WASTE, AND ABUSE
To report fraud, waste, and abuse, contact the Office of the Inspector General via
   Website:        http://oig.ssa.gov/report-fraud-waste-or-abuse
   Mail:           Social Security Fraud Hotline
                   P.O. Box 17785
                   Baltimore, Maryland 21235
   FAX:            410-597-0118
   Telephone:      1-800-269-0271 from 10:00 a.m. to 4:00 p.m. Eastern Standard Time
   TTY:            1-866-501-2101 for the deaf or hard of hearing
